                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106
October 13, 2009

Report Number: A-07-09-00296

Mr. Brian Fitzpatrick
Director Internal Audit
Blue Cross Blue Shield of Montana
404 Fuller Avenue
Helena, Montana 59604

Dear Mr. Fitzpatrick:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of Pension Costs Claimed for Medicare
Reimbursement by Blue Cross Blue Shield of Montana for Fiscal Years 2004 Through 2007.”
We will forward a copy of this report to the HHS action official noted on the following page for
review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-09-00296
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Brian Fitzpatrick

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




REVIEW OF PENSION COSTS CLAIMED
FOR MEDICARE REIMBURSEMENT BY
   BLUE CROSS BLUE SHIELD OF
   MONTANA FOR FISCAL YEARS
      2004 THROUGH 2007




                       Daniel R. Levinson
                        Inspector General

                         October 2009
                         A-07-09-00296
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Blue Cross Blue Shield of Montana (Montana) administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated November 30, 2006.

CMS reimburses a portion of the annual contributions that contractors make to their pension
plans. In claiming costs, contractors must follow cost reimbursement principles contained in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.

The Medicare contracts require contractors to allocate or separately calculate pension costs.
Contractors must use the separate calculation method if there is a material difference between the
results of the two methods.

OBJECTIVE

Our objective was to determine the allowability of pension costs that Montana claimed for
Medicare reimbursement for fiscal years (FY) 2004 through 2007.

SUMMARY OF FINDING

Montana did not claim $671,454 of pension costs that were allowable for Medicare
reimbursement for FYs 2004 through 2007. The underclaim occurred primarily because
Montana (a) did not claim pension costs for FY 2004 and (b) did not claim pension costs
associated with indirect Medicare operations for FYs 2005 through 2007. Beginning with FY
2005, Montana used only the Medicare segment’s pension cost to claim $875,853 for Medicare
reimbursement. We calculated allowable pension costs for FYs 2004 through 2007 in
accordance with CAS 412 and 413, as required by the Medicare contracts, to be $1,547,307, a
difference of $671,454.

RECOMMENDATION

We recommend that Montana increase its Final Administrative Cost Proposal pension costs by
$671,454.

AUDITEE COMMENTS

In written comments on our draft report, Montana concurred with our recommendation.
Montana’s comments are included in their entirety as Appendix B.




                                                i
                                                  TABLE OF CONTENTS

                                                                                                                                     Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Blue Cross Blue Shield of Montana.....................................................................1
              Medicare Reimbursement of Pension Costs ........................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................1
               Objective ..............................................................................................................1
               Scope....................................................................................................................1
               Methodology ........................................................................................................2

FINDING AND RECOMMENDATION.................................................................................2

          FEDERAL REQUIREMENTS........................................................................................2

          ALLOWABLE PENSION COSTS NOT CLAIMED.....................................................3

          RECOMMENDATION ...................................................................................................3

          AUDITEE COMMENTS.................................................................................................3

APPENDIXES

    A – ALLOWABLE MEDICARE PENSION COSTS FOR BLUE CROSS BLUE SHIELD
        OF MONTANA FOR FISCAL YEARS 2004 THROUGH 2007

    B – AUDITEE COMMENTS




                                                                    ii
                                      INTRODUCTION

BACKGROUND

Blue Cross Blue Shield of Montana

Blue Cross Blue Shield of Montana (Montana) administered Medicare Part A and Part B
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated November 30, 2006.

Medicare Reimbursement of Pension Costs

Medicare reimburses a portion of the annual contributions that contractors make to their pension
plans. To be allowable for Medicare reimbursement, pension costs must be (1) measured,
assigned, and allocated in accordance with Cost Accounting Standards (CAS) 412 and 413 and
(2) funded as specified by part 31 of the Federal Acquisition Regulation (FAR).

Beginning with fiscal year (FY) 1988, CMS incorporated specific segmentation language into
Medicare contracts that requires contractors to use either an allocation method or a separate
calculation method to identify and claim pension costs for Medicare reimbursement. Under the
allocation method, the contractor determines total plan CAS pension costs and allocates a share
to Medicare. Under the separate calculation method, the contractor separately identifies the
pension cost components for the Medicare segment. The contractor must use the separate
calculation method if its result is materially different from that of the allocation method.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine the allowability of pension costs that Montana claimed for
Medicare reimbursement for FYs 2004 through 2007.

Scope

We reviewed $875,853 of pension costs that Montana claimed for Medicare reimbursement on
its Final Administrative Cost Proposals (FACP) for FYs 2004 through 2007. Achieving our
objective did not require that we review Montana’s overall internal control structure. However,
we reviewed the internal controls related to the pension costs claimed for Medicare
reimbursement to ensure that the pension costs were allocable in accordance with the CAS and
allowable in accordance with the FAR.

We performed fieldwork at Montana’s office in Helena, Montana, in September 2008.




                                               1
Methodology

We reviewed the applicable portions of the FAR, CAS, and Medicare contracts. Additionally,
we reviewed Montana’s FACPs to identify the amount of pension costs claimed for Medicare
reimbursement for FYs 2004 through 2007. We also determined the extent to which Montana
funded CAS pension costs with contributions to the pension trust fund and accumulated
prepayment credits. We based our calculations on separately computed CAS pension costs for
the Medicare segment and the “Other” segment. The CMS Office of the Actuary calculated the
allocable CAS pension costs based on Montana’s historical practices and on the results of our
segmentation review, “Review of the Qualified Pension Plan at Blue Cross Blue Shield of
Montana, a Terminated Medicare Contractor, for the Period January 1, 2004, to
November 30, 2006” (A-07-09-00295).

In performing our review, we used information that Montana’s actuarial consulting firms
provided. The information included assets, liabilities, normal costs, contributions, benefit
payments, investment earnings, and administrative expenses. We examined Montana’s
accounting records, pension plan documents, annual actuarial valuation reports, and Department
of Labor/Internal Revenue Service Form 5500s.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusions based on our audit objective.

                           FINDING AND RECOMMENDATION

Montana did not claim $671,454 of pension costs that were allowable for Medicare
reimbursement for FYs 2004 through 2007. The underclaim occurred primarily because
Montana (a) did not claim pension costs for FY 2004 and (b) did not claim pension costs
associated with indirect Medicare operations for FYs 2005 through 2007. Beginning with FY
2005, Montana used only the Medicare segment’s pension cost to claim $875,853 for Medicare
reimbursement. We calculated allowable pension costs for FYs 2004 through 2007 in
accordance with CAS 412 and 413, as required by the Medicare contracts, to be $1,547,307, a
difference of $671,454.

FEDERAL REQUIREMENTS

The Medicare contracts address the determination and allocation of pension costs. The contracts
state: “The calculation of and accounting for pension costs charged to this agreement/contract
are governed by the Federal Acquisition Regulation and Cost Accounting Standards 412 and
413.”

FAR 31.205-6(j) addresses allowability of pension costs and requires that plan contributions
substantiate pension costs assigned to contract periods.




                                               2
CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods.

ALLOWABLE PENSION COSTS NOT CLAIMED

Montana did not claim $671,454 of allowable Medicare pension costs for FYs 2004 through
2007. During that period, Montana claimed pension costs of $875,853 for Medicare
reimbursement. We calculated allowable pension costs based on separately computed CAS
pension costs for the Medicare segment and the “Other” segment in accordance with CAS 412
and 413. Based on the terms of the Medicare contracts, the allowable CAS pension costs for this
period totaled $1,547,307.

The following table compares allowable CAS pension costs with the pension costs claimed on
Montana’s FACPs. Appendix A contains details on allowable pension costs and contributions.

            Comparison of Allowable Pension Costs and Claimed Pension Costs
                                Medicare Pension Costs
                                Allowable      Claimed
                Fiscal Year     Per Audit    By Montana Difference
                   2004            $414,653            $0     $414,653
                   2005             529,024       379,851      149,173
                   2006             521,148       431,493       89,655
                   2007              82,482        64,509       17,973
                    Total        $1,547,307      $875,853     $671,454

The Medicare contracts require Montana to calculate pension costs for Medicare reimbursement
pursuant to CAS 412 and 413. However, Montana (a) did not claim pension costs for FY 2004
and (b) did not claim pension costs associated with indirect Medicare operations for FYs 2005
through 2007. As a result, Montana underclaimed $671,454 of allowable pension costs.

RECOMMENDATION

We recommend that Montana increase its FACP pension costs by $671,454.

AUDITEE COMMENTS

In written comments on our draft report, Montana concurred with our recommendation.
Montana’s comments are included in their entirety as Appendix B.




                                                3
APPENDIXES
                       APPENDIX A: ALLOWABLE MEDICARE PENSION COSTS FOR                         Page 1 of 3
                              BLUE CROSS BLUE SHIELD OF MONTANA
                               FOR FISCAL YEARS 2004 THROUGH 2007

                                                       Total         "Other"        Medicare      Total
     Date                 Description                 Company        Segment        Segment      Medicare

     2003         Allocable Pension Cost         1/                   $2,240,031     $329,115

     2004         Contributions                  2/    $3,765,000     $3,765,000           $0
    8.50%         Discount for Interest          3/     ($294,954)     ($294,954)          $0
January 1, 2004   Present Value Contributions    4/    $3,470,046     $3,470,046           $0
                  Prepayment Credit Applied      5/    $2,822,606     $2,475,455     $347,151
                  Present Value of Funding       6/    $6,292,652     $5,945,501     $347,151

January 1, 2004   CAS Funding Target             7/    $2,822,606     $2,475,455     $347,151
                  Percentage Funded              8/                      100.00%      100.00%
                  Funded Pension Cost            9/                   $2,475,455     $347,151
                  Allowable Interest            10/                           $0           $0
                  Allocable Pension Cost        11/                   $2,475,455     $347,151
     2004         Fiscal Year Pension Cost      12/                   $2,416,599     $342,642
                  Medicare LOB* Percentage      13/                        3.15%       98.80%

                  Allowable Pension Cost        14/                     $76,123      $338,530       $414,653

     2005         Contributions                        $8,075,000     $8,075,000           $0
    8.00%         Discount for Interest                 ($597,311)     ($597,311)          $0
January 1, 2005   Present Value Contributions          $7,477,689     $7,477,689           $0
                  Prepayment Credit Applied            $3,722,713     $3,301,695     $421,018
                  Present Value of Funding            $11,200,402    $10,779,384     $421,018

January 1, 2005   CAS Funding Target                   $3,722,713     $3,301,695     $421,018
                  Percentage Funded                                      100.00%      100.00%
                  Funded Pension Cost                                 $3,301,695     $421,018
                  Allowable Interest                                          $0           $0
                  Allocable Pension Cost                              $3,301,695     $421,018
     2005         Fiscal Year Pension Cost                            $3,095,135     $402,551
                  Medicare LOB* Percentage                                 4.12%       99.74%

                  Allowable Pension Cost                               $127,520      $401,504       $529,024
                                                                                                                         Page 2 of 3



                                                                 Total               "Other"            Medicare           Total
           Date                   Description                   Company              Segment            Segment           Medicare

          2006            Contributions                                  $0                   $0                $0
         8.00%            Discount for Interest                          $0                   $0                $0
     January 1, 2006      Present Value Contributions                    $0                   $0                $0
                          Prepayment Credit Applied              $3,479,535           $3,089,767          $389,768
                          Present Value of Funding               $3,479,535           $3,089,767          $389,768

     January 1, 2006      CAS Funding Target                     $3,479,535           $3,089,767          $389,768
                          Percentage Funded                                              100.00%           100.00%
                          Funded Pension Cost                                         $3,089,767          $389,768
                          Allowable Interest                                                  $0                $0
                          Allocable Pension Cost                                      $3,089,767          $389,768
           2006           Fiscal Year Pension Cost                                    $3,142,749          $397,581
                          Medicare LOB* Percentage                                         3.99%            99.54%

                          Allowable Pension Cost                                        $125,396          $395,752           $521,148

           2007           Fiscal Year Pension Cost       15/                            $514,961           $64,961
                          Medicare LOB* Percentage                                         3.42%            99.86%

                          Allowable Pension Cost                                         $17,612           $64,870            $82,482


   * Line of business.

FOOTNOTES

 1/ We obtained the 2003 calendar year allocable pension from our prior review (A-07-07-00227; issued April 26, 2007).

 2/ We obtained Total Company contribution amounts and dates of deposit from Internal Revenue Service Form 5500 reports. The
    contributions included deposits made during the plan year and accrued contributions deposited after the end of the plan year but
    within the time allowed for filing tax returns. We determined the contributions allocated to the Medicare segment during the
    pension segmentation review (A-07-09-00295). The amounts shown for the “Other” segment represent the difference between
    the Total Company and the Medicare segments.

 3/ We subtracted the interest that was included in the contributions deposited after the beginning of the valuation year to discount
    the contributions back to their beginning-of-the-year value. For purposes of this Appendix, we computed the interest as the
    difference between the present value of contributions (at the valuation interest rate) and actual contribution amounts.


 4/ The present value of contributions is the value of the contributions discounted from the date of deposit back to the first day of
    the plan year. For purposes of this Appendix, we deemed deposits made after the end of the plan year to have been made on the
    final day of the plan year, consistent with the method mandated by the Employee Retirement Income Security Act.
                                                                                                                         Page 3 of 3




 5/ A prepayment credit represents the accumulated value of premature funding from the previous year(s). A prepayment credit is 

    created when contributions, plus interest, exceed the end-of-year Cost Accounting Standards (CAS) funding target. A 

    prepayment credit is carried forward, with interest, to fund future CAS pension costs.


 6/ The present value of funding represents the present value of contributions plus prepayment credits. This is the amount of funding
    that is available to cover the CAS funding target measured at the first day of the plan year.

 7/ The CAS funding target must be funded by current or prepaid contributions to satisfy the funding requirement of the Federal 

    Acquisition Regulation (FAR) 31.205-6(j)(2)(i). 


 8/ The percentage of costs funded is a measure of the portion of the CAS funding target that was funded during the plan year.
    Because any funding in excess of the CAS funding target is accounted for as a prepayment in accordance with CAS 412.50(c)(1)
    (as amended), the funded ratio may not exceed 100 percent. We computed the percentage funded as the present value of funding
    divided by the CAS funding target. For purposes of illustration, the percentage of funding has been rounded to four decimals.


 9/ We computed the funded CAS pension cost as the CAS funding target multiplied by the percent funded.

10/ We assumed that interest on the funded CAS pension cost, less the prepayment credit, accrues in the same proportion as the
    interest on contributions bears to the present value of contributions. However, we limited the interest in accordance with FAR
    31.205-6(j)(2)(iii), which does not permit the allowable interest to exceed the interest that would accrue if the CAS funding
    target, less the prepayment credit, were funded in four equal installments deposited within 30 days after the end of the quarter.

11/ The allocable CAS pension cost is the amount of pension cost that may be allocated for contract cost purposes.

12/ We converted the plan year (January 1 through December 31) allocable pension costs to a fiscal year (FY) basis (October 1
    through September 30). We calculated the FY pension costs as 1/4 of the prior year’s costs plus 3/4 of the current year’s costs.


13/ We calculated allowable pension costs of the Medicare and “Other” segments based on the Medicare line of business (LOB)
    percentage of each segment. We determined the LOB percentages based upon information provided by Montana.

14/ We computed the allowable Medicare pension cost as the FY pension cost multiplied by the Medicare LOB percentage. Pursuant
    to CAS 412 and 413, the total Medicare allowable pension costs charged to the Medicare contract consisted of the Medicare
    segment’s direct pension costs plus “Other” segment pension costs attributable to indirect Medicare operations.


15/ Due to Montana’s Medicare contract termination on 11/30/2006, we computed FY 2007 pension costs for the two applicable
    months of the fiscal year.
                               APPENDIX B: AUDITEE COMMENTS 



                                                                                                                          ~ N PorI:_
    . ,                 BIUeCrOSS                                                                                               POs..I:JO;I
      r. 	 :.          BlueShieJd                                                                                     _     . Mo/Ian;I 09601

   ...               • of Montrula 
                                                                    tr.._ _ _ lo>o.II0l«718Z8

       Uve Smarl Uve Healthy.­


      September 23, 2009




      Patrick I. Cogley 

      Regional In~pector General for Audit services 

      Office of Inspector General 

      Office of Audit Services, Rt'gion VII 

      601 E 12'" St, Room 0429
      Kansas City MO 64106


      RE: Drilft DIG Report Number:            A·07·09·00296


      Oear Mr. Cogley:


      BlueCross BlueShield of Mon tana (BCBSMT) is in receipt of the draft cop ies of the DIG report ent itled
      HReview of Pension Costs Claimed for Medicare Reimbursement by BCBSMT for Fiscal Years 2()()4
      Through 2OCI1."

       In this report, the OIG recommends that BCBSMT revise ih Fina l Administrat ive Cost Proposals (FACP's)
      lor the years reviewed to increase (I<limed pension costs by $611,454.


      BCBSMT concurs with          thi~   recommendation . In accordance with our eKit from the Medicare fee·for·
      ~ervice   program, we no longer         ha~e acce~~    to (M S ~ystem~ in order to be able to aml!nd our FA(P
      submission~ . Howe~er,         it is our understanding based upon          pre~ious discussion~      with (MS, that the
      recommended adjustments will be considered in our global se\ill!ment agreement with eMS as part of
       the final Medicare con tract closure procedures.


      We are thankful for the opportunity to respond to the draft report . We also appreciate Ihe 

      professionalism your staff exhibited throughout the audit. If you                  ha~e   any questions about our 

      rl!Sponse, please contact Erin frisbl!Y, 406·444·8983. 



      Sincerely,




       8rian Fitlpatrick 

       8(BSMT Director Internal Audit 





0 , •• ,,,." •• , ""0,,, 0'   to , .". UO .. . ..... . ,.",. , .. oC' '' ,o • . " ' ''0".''0. o. , • • ,,, •••• , "". c•• " ••• " •• ,.,,,. " •• ,
